NATIONAL CREDIT UNION ADMINISTRATION

     OFFICE OF INSPECTOR GENERAL




             MATERIAL LOSS REVIEW
                       OF
            CAL STATE 9 CREDIT UNION

                       Report #OIG-10-03
                         April 14, 2010




                       William A. DeSarno
                       Inspector General


   Released by:                         Auditor-in-Charge:



   James Hagen                          R. William Bruns
   Deputy Inspector General              Senior Auditor

                               i
CONTENTS


Section                                                              Page



   I      EXECUTIVE SUMMARY…………………………………………                           1

  II      BACKGROUND……………………………………………………                              4

  III     OBJECTIVES, SCOPE, AND METHODOLOGY……………….                   7

  IV      RESULTS IN DETAIL…………………………………………….                         9

              A. Why Cal State 9 Credit Union Failed……………….           9

              B. California State Supervisory Authority and NCUA
                 Supervision of Cal State 9 Credit Union……………        20



  APPENDICES

  A           Examination History……………………………………….                    38

  B           Liquidity Ratios and Trends (Glossary and Charts)…..... 49

  C           Changes in the Real Estate Market Environment during
              the Operation of the Indirect HELOC
              Program…………………………………………………….                           58

  D           NCUA Management Comments……………………….…                    60




                                     ii
Abbreviations


ALLL             Allowance for loan and lease losses
Broker           Local third-party mortgage broker
Cal State 9      Cal State 9 Credit Union
California SSA   California State Supervisory Authority
C&D              Cease and Desist [order]
CUDL             Credit Union Direct Lending [program]
CUSO             Credit Union Owned Service Organization
CLTV             Combined loan-to-value [ratio]
DOR              Document of Resolution
FISCU            Federally insured state-chartered credit union
FCU Act          Federal Credit Union Act
FPR              Financial Performance Reports
HELOC            Home Equity Line of Credit
LTV              Loan-to-value [ratios]
Management       Cal State 9 Board and management
NCUA             National Credit Union Administration
NCUSIF           National Credit Union Share Insurance Fund
OIG              Office of Inspector General
P&A              Purchase and Assumption
RFE              Risk-Focused Examination [program]




                                          iii
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review of Cal State 9 Credit Union (Cal State 9). We
reviewed Cal State 9 to: (1) determine the cause(s) of Cal State 9’s failure and the
resulting loss to the National Credit Union Share Insurance Fund (NCUSIF), and (2)
assess NCUA’s supervision of the credit union. To achieve these objectives, we
analyzed NCUA and California SSA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region V and the
California SSA; and reviewed NCUA policies and procedures, NCUA Call Reports, and
NCUA Financial Performance Reports (FPRs).

We determined Cal State 9 failed because its Board and management (management)
did not implement adequate risk management practices to address credit,
concentration, and liquidity risks. Specifically, management committed an exorbitant
percentage of the credit union’s assets in an indirect Home Equity Line of Credit
(HELOC) program without adequate controls in place to oversee and manage the risks
in the program’s operations.

A significant factor in Cal State 9’s failure was management’s strategic decision to fund
an excessive amount of indirect HELOCs rife with risky loan elements despite
examiners’ concerns in the years preceding the institution’s failure. California SSA and
NCUA examiners determined, and the OIG agrees, that Cal State 9 management:

   •   Created credit risk through weak underwriting standards.

   •   Created concentration risks by: (1) allowing the indirect HELOC portfolio to
       account for a significant percentage of the credit union’s total assets, and (2)
       funding most of the indirect HELOC portfolio with subprime loans.

   •   Created liquidity risk through their rapid and excessive funding of high risk
       subprime indirect HELOCs.

We determined that despite examiners’ concerns and recommendations for
improvement, management’s inability to effectively manage the risks their own actions
had created eventually led to Cal State 9’s failure.

A contributing factor in Cal State 9’s failure was NCUA and California SSA examiners’
inadequate response to the increasing credit risk identified in the credit union’s indirect
HELOC program and the credit union’s liquidity risk, as Cal State 9 increasingly
committed more of its assets to fund the indirect HELOC portfolio. Specifically, we
determined examiners did not respond adequately or timely to the risks facing Cal State
9, considering: (1) the rate and level of growth of the HELOC portfolio; (2) the excessive
concentration of HELOCs, nearly all of which contained subprime elements; and (3) the
continuing changes in the California real estate market environment. In addition, we

                                                   1
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



determined examiners did not adequately monitor the credit union’s liquidity position.
As a result, we believe examiners missed opportunities to slow or stop the growth of the
indirect HELOC program, which would have likely mitigated the loss to the NCUSIF.

This report does not make recommendations but provides observations and
suggestions. As major causes, trends, and common characteristics of financial
institution failures are identified in our reviews, we will communicate those to
management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of the NCUA’s supervision program and make
recommendations, as warranted.

Auditor observations made as a result of our review of Cal State 9’s failure include:

   •   Cal State 9 management’s poor strategic decisions, aggressive appetite for asset
       growth, and excessive concentrations of sub-prime loans, combined with the
       declining California real estate market, and lax internal controls, created a
       financial situation where institutional failure was all but assured.

   •   Cal State 9 management did not take the time to gain the necessary experience
       needed to understand and manage all of the related risks with their newly
       initiated HELOC program before aggressively pursuing the program.

   •   NCUA has provided an abundance of guidance to credit union management [and
       examiners] prior to and throughout the residential mortgage market meltdown.
       However, guidance alone does not protect against failure if management or
       examiners do not proactively recognize the risks and take corrective actions.

   •   NCUA’s examination processes provide examiners with the tools and guidance
       with which to assess the safety and soundness of credit union operations and
       any risk to the NCUSIF. NCUA also has the appropriate means with which to
       address serious credit union problems. NCUA officials should ensure examiners
       fully employ and rely on the examination processes in order to avoid increased
       safety and soundness issues, failures, and losses to the NCUSIF. In addition,
       although SSA’s are primarily responsible for supervision of federally insured
       state-chartered credit unions and their regulatory issues, NCUA must put its legal
       and fiduciary responsibility to ensure the safety of the NCUSIF ahead of all other
       issues and challenges.

   •   Examiners did not view Cal State 9’s participation program as a safety and
       soundness concern to the credit union, other financial institutions, or to the
       NCUSIF. Examiners merely viewed participations as a means for Cal State 9 to
       manage its balance sheet risk.

NCUA previously established guidance to credit union management and examiners to
address the issues that led to Cal State 9’s failure, such as specialized lending

                                                   2
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



activities, third-party relationships, HELOCs, and loan participations. However, based
on this review, it was clear Cal State 9 management failed to follow this guidance.
Since NCUA officials declared Cal State 9 insolvent, 1 NCUA has provided additional
guidance to credit union management and examiners to address deficiencies in the
areas of third-party relationships.

We appreciate the courtesies and cooperation NCUA and California SSA management
and staff provided to us during this review.




1
    NCUA officials determined Cal State 9 was insolvent as of May 2008.

                                                          3
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



BACKGROUND

Cal State 9 was a federally insured state-chartered credit union (FISCU) located in
Concord, California. Originally established in 1948 to serve employees of California
State University, Cal State 9 grew to serve the residents of five counties in the San
Francisco Bay area. Cal State 9 also served other groups and associations including
state employees, and Regents, employees, and students in the University of California
system.

In July 2007, the National Credit Union Administration (NCUA) and the California SSA
transferred primary supervision of Cal State 9 to NCUA’s Division of Special Actions. 2
In September 2007, the California SSA issued a Final Order3 placing restrictions on Cal
State 9’s lending activities, as well as requirements for monitoring liquidity.

On November 2, 2007, the California DFI placed Cal State 9 into conservatorship and
appointed the NCUA as conservator. The NCUA Board placed Cal State 9 into Federal
conservatorship on November 15, 2007. At the time of conservatorship, Cal State 9
was a full service FISCU with five branches and approximately 27,000 members. Cal
State 9 was located in NCUA’s Region V.

In April 2008, the NCUA accepted bids from credit unions interested in acquiring Cal
State 9. In May 2008, the NCUA Board delegated authority to liquidate Cal State 9 and
consummate a Purchase and Assumption (P&A) with Patelco Credit Union under the
Federal Credit Union Act (FCU Act). 4

On June 30, 2008, the NCUA Board involuntarily liquidated Cal State 9 and appointed
itself Liquidating Agent. 5 Also on this date, the NCUA, as liquidating agent, executed a
P&A agreement and transferred the assets, liabilities, and shares of Cal State 9 to
Patelco. As of July 2008, the estimated loss to the National Credit Union Share
Insurance Fund (NCUSIF) was approximately $206 million; however, the final cost to
the NCUSIF will not be known until all assets are sold.




2
  Special Actions identifies, controls, and corrects serious problems to maintain the integrity and soundness of the
NCUSIF.
3
  The California DFI’s Final Order is equivalent to NCUA’s Cease and Desist (C&D) Order.
4
  Pursuant to Sections 207(a)(3), 207(a)(3)(A)(ii) and 207(a)(3)(B) of the FCU Act.
5
  The liquidating agent is authorized under Section 107(14), 205(h), 207(b)(2)(A), 207(b)(2)(B), 207(b)(2)(E),
207(b)(2)(J), and 209 of the FCU Act, to transfer the assets, liabilities, and insured shares of the liquidating credit
union to another insured credit union.

                                                            4
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and interpreting
data; reaching conclusions; making recommendations; and developing action plans.
The objectives of the total analysis process include evaluating CAMEL 6 components,
and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL rating
includes consideration of key ratios, supporting ratios, and trends. Generally, the
examiner uses the key ratios to evaluate and appraise the credit union’s overall financial
condition. During an examination, examiners assign a CAMEL rating, which completes
the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 7 trend analysis, 8 reasonableness analysis, 9 variable data
analysis, 10 and qualitative data analysis. 11 Numerous ratios measuring a variety of
credit union functions provide the basis for analysis. Examiners must understand these
ratios both individually and as a group because some individual ratios may not provide
an accurate picture without a review of the related trends. Financial indicators such as
adverse trends, unusual growth patterns, or concentration activities can serve as
triggers of changing risk and possible causes for future problems. NCUA also instructs
examiners to look behind the numbers to determine the significance of the supporting
ratios and trends. Furthermore, NCUA requires examiners to determine whether
material negative trends exist; ascertain the action needed to reverse unfavorable
trends; and formulate, with credit union management, recommendations and plans to
ensure implementation of these actions.

Risk-Focused Examination Program

In 2002, NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-focused
supervision procedures often include both off-site and on-site work that includes
reviewing off-site monitoring tools and risk evaluation reports. The RFE process
6
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
7
  Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
8
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
9
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.
10
   Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process enables
examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of service, and
risk potential.
11
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.

                                                          5
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks may
include: (a) reviewing the prior examination report to identify the credit union’s highest
risk areas and areas that require examiner follow-up, and (b) analyzing Call Report and
FPR trends. The extent of supervision plans depends largely on the severity and
direction of the risks detected in the credit union’s operation and on management’s
demonstrated ability to manage those risks. A credit union’s risk profile may change
between examinations. Therefore, the supervision process encourages the examiner to
identify those changes in profile through:

     •   Review of Call Reports,

     •   Communication with credit union staff,

     •   Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program. 12 NCUA indicated
these changes were necessary due to adverse economic conditions and distress in the
nation’s entire financial structure, which placed credit unions at greater risk of loss. The
NCUA stated that the 12-Month Program will provide more timely relevant qualitative
and quantitative data to recognize any sudden turn in a credit union's performance.

Supervision of FISCUs

NCUA’s statutory authority and its guidelines indicate the agency has the legal and
fiduciary responsibility to ensure the safety of the NCUSIF. FISCUs receive the same
account insurance coverage under the NCUSIF as federally chartered credit unions.
Therefore, FISCUs are subject to the same review of risks as other credit unions. The
two most common types of on-site FISCU reviews are an independent insurance review
and a joint examination/insurance review. In joint examinations/insurance reviews, both
NCUA and the SSA focus on risk issues (including safety and soundness issues), while
the state examiner focuses additionally on regulatory concerns. However, during an
independent insurance review, NCUA examiners limit their role to the review and
analysis of risks to the NCUSIF only, rather than a complete examination of the FISCU.

NCUA examiners primarily monitor the financial condition and progress of FISCUs by
reviewing SSA examination reports, Call Reports, and FPRs. In reviewing SSA reports,
NCUA’s concerns include whether:

     •   The SSA examiners adequately addressed material risks within the FISCUs;

     •   The credit union understands the seriousness of the risks; and

12
 The 12-month program requires either an examination or a material on-site supervision contact within a 10 to 14
month timeframe based on risk-based scheduling eligibility.

                                                        6
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




       •   An agreement or plan exists for resolving unacceptable risks in a timely manner.

NCUA recognizes that SSA’s are primarily responsible for the supervision of federally
insured state-chartered credit unions. The FCU Act requires that NCUA should use the
SSA examination reports to the maximum extent feasible. 13 However, NCUA reserves
the right to conduct an insurance review of any FISCU as it deems necessary to
determine its condition for insurance purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

The FCU Act requires the NCUA Office of Inspector General to conduct a material loss
review of an insured credit union if the loss to the NCUSIF exceeds $10 million and an
amount equal to 10 percent of the total assets of the credit union at the time at which
the Board initiated assistance or was appointed liquidating agent. NCUA notified the
OIG of a loss reserve for Cal State 9 of $206 million. Consequently, in accordance with
the FCU Act and Chapter 3 of the NCUA Special Assistance Manual, we initiated a
material loss review.

The objectives of our review were to: (1) determine the cause(s) of Cal State 9’s failure
and the resulting loss to the NCUSIF, and (2) assess NCUA’s supervision of the credit
union. To accomplish our review, we conducted fieldwork at NCUA’s headquarters in
Alexandria, VA, and its regional office in Tempe, AZ. The scope of our review covered
the period from June 2002 to June 2008, Cal State 9’s liquidation and subsequent P&A
date.

To determine the cause of Cal State 9’s failure and assess the adequacy of NCUA’s
supervision we:

       •   Analyzed NCUA and California SSA examination and supervision reports and
           related correspondence;

       •   Interviewed management and staff from NCUA Region V and the California SSA;
           and

       •   Reviewed NCUA policies and procedures, NCUA Call Reports, and NCUA FPRs.

We used computer-processed data from NCUA’s Automated Integrated Regulatory
Examination Software and NCUA online systems. We did not test the controls over
these systems. However, we relied on our analysis of information from management
reports, correspondence files, and interviews to corroborate data obtained from these
systems to support our audit conclusions.


13
     The FCU Act, 12 U.S.C., Chapter 14, § 1781(b)(1).

                                                         7
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



This report does not make recommendations but provides observations and
suggestions. As major causes, trends, and common characteristics of financial
institution failures are identified in our reviews, we will communicate those to
management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of the NCUA’s supervision program and make
recommendations, as warranted.

We conducted this audit from March 2009 through April 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Management reviewed a
discussion draft of this report. We incorporated their suggested changes where
appropriate.




                                                   8
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



RESULTS IN DETAIL

We determined Cal State 9 management’s actions contributed directly to the credit
union’s failure. In addition, we determined California SSA and NCUA examiners may
have been able to mitigate the loss to the NCUSIF had they fully recognized the safety
and soundness concerns looming in Cal State 9’s indirect Home Equity Line of Credit
(HELOC) program and took more aggressive actions to address those concerns.

A. Why Cal State 9 Credit Union Failed

     Management’s             Cal State 9 failed because its Board and management
     Actions Led to Cal       (management) did not implement adequate risk
     State 9’s Failure        management practices to address credit, 14 concentration, 15
                              and liquidity risks. 16 Specifically, Cal State 9’s
                              management committed an exorbitant percentage of the
credit union’s assets in an indirect HELOC program without adequate controls in place
to oversee and manage the risks in the program’s operations.

A significant factor in Cal State 9’s failure was management’s strategic decision to fund
an excessive amount of indirect HELOCs rife with risky loan elements, a decision we
believe was rooted in the unprecedented appreciation in the California housing market.
Although examiners expressed concern about Cal State 9’s risk management practices
in the years preceding the institution’s failure and made a number of recommendations
for improvement, management’s inability to effectively manage the risks their own
actions had created eventually led to Cal State 9’s failure. Although the downturn in the
California real estate market 17 may be viewed by some as the cause of Cal State 9’s
failure, management’s actions clearly left the credit union overexposed to unfavorable
economic conditions.

California SSA and NCUA examiners determined, and the OIG agrees, that Cal State 9
management:

      •   Created credit risk through weak underwriting standards.



14
   Credit Risk is the current and prospective risk to earnings or capital arising from an obligor’s failure to meet terms
of any contract with the credit union or otherwise fail to perform as agreed. Credit risk exists in all activities where the
credit union invests or loans funds with the expectation of repayment.
15
   Concentration risk results when a credit union does not properly address diversification in the portfolio.
16
   Liquidity Risk is the current and prospective risk to earnings or capital arising from a credit union’s inability to meet
its obligations when they come due, without incurring material costs or unacceptable losses. Liquidity risk includes
the inability to manage funding sources.
17
   A Business Week article published in April 2005 indicated that extremely cheap mortgage rates had fueled a
record-setting level of home sales since 2001. Demand had caused home prices to jump at rates not seen since the
1980s. Another article published in Barron’s in August 2006 indicated the housing market boom appeared to have
ended abruptly for many parts of the U.S. in late summer of 2005, and as of summer 2006, several markets were
facing increasing inventories, falling prices, and sharply reduced sales volumes.

                                                             9
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



     •   Created concentration risks by: (1) allowing the indirect HELOC portfolio to
         account for a significant percentage of the credit union’s total assets, and (2)
         funding most of the indirect HELOC portfolio with subprime loans.

     •   Created liquidity risk through their rapid and excessive funding of high risk
         subprime indirect HELOCs.

Summary of Cal State 9’s CAMEL Ratings History and indirect HELOC Program

Historically, Cal State 9 was considered a well-run credit union, consistently receiving
composite code 1 or 2 CAMEL ratings from the California SSA and NCUA through
December 2005.

In May 2003, Cal State 9 began an indirect HELOC program with a local third-party
mortgage broker (broker) to offer HELOCs to individuals. The indirect HELOC program
allowed Cal State 9 to finance and service HELOCs originated by the broker.

Substantially all of the HELOCs Cal State 9 funded had subprime elements that
included:

     •   Stated income; 18

     •   High Combined Loan to Value (CLTV 19) ratios;

     •   Borrowers with low credit scores; and

     •   Being in a junior position behind negative amortization first mortgages.

The broker presented each loan to Cal State 9 management, who had first right of
refusal to decide whether or not to fund each HELOC presented.

In addition, NCUA officials determined that Cal State 9 performed very little due
diligence over the HELOCs. The CFO of Cal State 9 was the sole person responsible
for the creation and daily operations of the indirect HELOC program and received
bonuses based on additional net income generated by the program. NCUA officials
surmised that this individual had no incentive to ensure the credit union had an effective
quality control system in place because any loan turned down from the broker would, in
effect, take money directly from his bonus.

Cal State 9’s lack of adequate risk management practices enabled the HELOC program
to grow excessively and at an extremely rapid pace. The HELOC portfolio grew from

18
   Stated income is a loan feature where an institution sets reduced or minimal documentation standards to
substantiate the borrower’s income and assets.
19
   Combined Loan-to-Value (ratio) is the aggregate principal balance(s) of all mortgages on a property divided by its
appraised value or purchase price, whichever is less.

                                                         10
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



$4.6 million in March 2003 20 to $357 million in June 2007 (7,661 percent) when the
credit union was placed under NCUA’s Special Actions. Chart 1 (below) illustrates the
rapid growth and concentration of Cal State 9’s HELOC portfolio in relation to its total
loans.

                                     Chart 1: HELOC Growth vs
                                        Total Loan Growth
                 $400
      Millions




                 $350                                                                                  Total
                                                                                                       HELOCs
                 $300
                 $250                                                                                  Total
                 $200                                                                                  Loans

                 $150
                 $100
                  $50
                   $-               $74                        $207                $346    $357
                        $5




From 2004 to 2007, Cal State 9’s Composite CAMEL rating eroded from a code 2 in
December 2005 to a code 5 during the June 2007 contact when Cal State 9 was placed
under NCUA Special Actions. In May 2008, NCUA concluded Cal State 9 was
insolvent 21 due to potential and known losses resulting from the indirect HELOC
program. Specifically, NCUA determined the Allowance for Loan and Lease Losses22
(ALLL) adjustments needed by Cal State 9 would result in a net worth ratio of negative
135.79 percent, a ratio considered critically undercapitalized under Prompt Corrective
Action. Appendix A provides details regarding the examination history of Cal State 9.
Table 1 (below) summarizes selected financial information for Cal State 9.




20
   We used data as of March 2003 because it was the most recent quarterly data available just prior to inception of
the indirect HELOC program in May 2003.
21
   A credit union is determined to be insolvent when the total amount of shares exceeds the present cash value of its
assets after providing for liabilities.
22
   The ALLL provides a credit union’s estimate of probable but unconfirmed losses in the loan portfolio as of the
financial statement date.

                                                         11
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Table 1

 Financial Measure($000)                  Dec-03   Dec-04   Dec-05   Dec-06   Dec-07
 Total Assets                            $245,643 $264,546 $320,617 $435,207 $339,037
 Total Shares and                        $194,489 $201,750 $251,961 $391,740 $285,439
 Deposits
 Total Loans & Leases                    $128,869 $169,581 $237,663 $352,349 $341,584

 Net Income (Loss)                          $428         $3,196         $6,048         $9,458       ($61,643)


Summary of Management’s Actions

The following summarizes Cal State 9 management’s actions contributing to the credit
union’s failure:

Credit Risk in the HELOC Program

Cal State 9 management created credit risk in the indirect HELOC portfolio through
weak underwriting standards, which enabled credit union management to concentrate a
significant percentage of its assets in indirect HELOCs. In addition, substantially all of
the HELOCs contained elements of subprime lending such as stated income, high
CLTVs, low credit scores, and being in a junior position behind negative amortization
first mortgages. Ultimately, the credit union experienced high delinquencies and loan
losses, which led to its failure.

NCUA guidelines indicate that credit union officials are responsible for planning,
directing, and controlling the credit union’s affairs, including the proper and profitable
conduct of credit union operations and the safety of credit union assets.
In addition, NCUA risk management guidelines state credit unions should have in place
a risk management program that includes a strategic plan with implementing policies,
procedures, and internal controls necessary to manage the risks inherent in their
operations. NCUA guidelines further state that successful risk management programs
rely on credit union management to identify, measure, monitor, and control existing and
potential risks.

Weak Underwriting Standards

California SSA and NCUA examiners determined, and we agree, that Cal State 9 had
weak underwriting standards. Examiners informed management that nearly all of the
HELOCs had elements of subprime lending 23 and most had multiple elements.
Specifically, examiners determined that:


23
     Subprime elements examiners referred to included stated income, negative amortization, and high CLTV features.

                                                         12
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



     •   During the December 2005 examination, stated income loans comprised 82
         percent of the HELOC portfolio. Examiners warned management that these
         types of loans have a greater chance that some of the income reported to the
         credit union may have been inflated. By July 2006, the level of stated income
         loans had increased to 88 percent. Although examiners had warned
         management of the potential for overstated incomes, we found no indication in
         any examination workpapers that management ever addressed the issue. In
         fact, examiners later indicated during the March 2007 joint contact that it did not
         appear that management had evaluated the high percentage of stated income
         [HELOC] loans for reasonableness.

     •   In December 2005, credit tier C paper (credit scores between 600-639) made up
         27 percent of the HELOC portfolio and an additional 12 percent had credit scores
         below 600. 24 By July 2006, although credit tier C paper increased only slightly to
         28 percent, loans to borrowers with credit scores below 600 had significantly
         increased to 18 percent.

     •   During the June 2006 joint contact, 61 percent of the HELOCs were in a junior
         position behind negative amortization first mortgages.

In addition, NCUA officials determined that at inception, nearly 70 percent of the
HELOCs had CLTVs between 85 percent and 124 percent. Examiners indicated the
credit union should have categorized loans with CLTVs of 89 percent [and higher] as
high risk.

Examiners warned management during the December 2005 examination that loan
products with liberalized features and liberal underwriting standards carry higher levels
of credit risk and that Cal State 9’s stated income loans, coupled with the indirect
HELOC portfolio’s high concentration risk, could potentially result in higher losses.
However, we found no indication that management ever addressed the program’s
underwriting standards. In fact, examiners warned management again during the
March 2007 examination (approximately one year later) of the risks posed by the
HELOC’s subprime elements.

Concentration Risks Created by the Indirect HELOC Program

Cal State 9 management created two interrelated and inseparable concentration risks
within the credit union. First, management funded a significant number of indirect
HELOCs within the credit union’s overall loan portfolio. Second, examiners determined
substantially all of the indirect HELOCs contained subprime elements. As a result,
when interest rates increased and property values declined significantly during the U.S.
residential mortgage market meltdown, Cal State 9 management was unable to

24
  NCUA guidance indicates that while there is no industry standard range of credit scores that describe subprime
borrowers, those borrowers with credit scores below 620 generally have a higher loan default rate.

                                                        13
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



successfully manage the high delinquencies and resulting loan losses. Ultimately, Cal
State 9 became insolvent as a result of the indirect HELOC program.

We believe two factors contributed significantly to Cal State 9’s excessive concentration
of its assets in indirect HELOCs:

   •   A desire to attain goals of fiscal stability and profitability after a failed auto lending
       program; and

   •   An incentive compensation program that paid nearly $400,000 in bonuses to the
       credit union’s CFO between 2006 and 2007 based on additional net income
       generated by the HELOC program.

NCUA guidelines indicate, in part, that sound risk management practices include
employing proper diversification strategies in order to avoid excessive concentrations in,
or reliance on, any asset, liability, or share category.

Eventually, examiners’ warnings of the risks associated with concentrations of subprime
loans in the portfolio materialized when the combination of rising interest rates and
declining California property values caused Cal State 9’s delinquencies to increase
dramatically. From December 2004, delinquencies grew from $696 thousand to $41.8
million by June 2007, a 5,907 percent increase. Further, due to the significant increase
in delinquencies, Cal State 9’s losses grew from $481 thousand in September 2006, to
$28.7 million by December 2007, a 5,867 percent increase.

Concentration of HELOCs

Cal State 9 management’s aggressive appetite for risk resulted in an excessive
concentration of the credit union’s assets in high risk HELOCs. Specifically, Cal State 9
management allowed the credit union’s indirect HELOC portfolio to grow to 80 percent
of the credit union’s total assets and 92 percent of the credit union’s total loans by June
2007.

Chart 2 (below) illustrates the concentration of Cal State 9’s HELOC portfolio as
compared to total assets and total loans from the first examination in March 2004
through the last contact in June 2007, when the credit union was assigned to NCUA’s
Special Actions.




                                               14
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



                          Chart 2: Concentration of Total HELOCs
         110%
                                                                        Total
         100%                                        91%         92%
                                        87%                             HELOCs /
          90%                                              80%          Total
          80%                                  73%                      Assets
                                  65%
          70%
          60%             50%                                           Total
                                                                        HELOCs /
          50%
                                                                        Total
          40%       30%                                                 Loans
          30%
          20%
          10%
                    Mar-04        Dec-05       Jun-06      Jun-07



Concentration of subprime HELOCs

Cal State 9 management also created credit risk by funding an extremely high
percentage of HELOCs having subprime elements. As previously noted, examiners had
determined that substantially all of the HELOCs had elements of subprime lending with
most having multiple elements. Throughout the examinations conducted from March
2004 through June 2007, examiners warned Cal State 9 management of increasing
credit risk due to the subprime elements in the indirect HELOC portfolio.

As previously noted, we found no indication that management improved the HELOC
program’s underwriting standards. In addition, we found no indication that management
made any effort to reduce its concentration of subprime loans, despite examiners
warnings. Although examiners finally recommended during the June 2006 examination
that management reduce its concentration of indirect HELOCs, examiners determined
during the next contact (March 2007) that management had in fact not reduced the
concentration of HELOCs.

Liquidity Risk within the HELOC Program

During the March 2007 examination, California SSA and NCUA examiners determined
Cal State 9 management did not adequately manage its liquidity. In addition, examiners
rated the credit union’s liquidity risk as high and expected its liquidity problems to
increase. Examiners indicated management had sold participations, liquidated
investments, borrowed funds, and increased dividend rates to attract shares in order to
meet liquidity needs. Specifically, Cal State 9 management:




                                               15
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



     •   Sold non-recourse 25 participations valued at nearly $190 million to three other
         credit unions and one bank between March 2003 and June 2007.

     •   Liquidated investments. Total investments declined by 65 percent during the
         period from December 2003 to June 2007. Chart 3 (below) illustrates Cal State
         9’s annualized investment growth/decline during this period.

                                       Chart 3: Investment Growth
               0.1           8%
           -6E-16
                                                                                  -7%
              -0.1

              -0.2
                                       -22%
              -0.3                                        -24%

              -0.4

              -0.5

              -0.6
                                                                                   -66%
              -0.7



     •   Borrowed funds regularly and established lines of credit. Cal State 9 borrowed
         as much as $61.1 million, and established a line of credit of up to $90 million
         during the course of the indirect HELOC program.

     •   Increased the dividend rate from 2.47 percent to 4.89 percent between
         December 2004 and March 2007, which resulted in share certificates increasing
         from $43 million to approximately $212 million, a 393 percent increase.

In addition, other liquidity trends indicated Cal State 9’s liquidity was tightening
significantly. Specifically, as of March 2004, Cal State 9’s ratio of cash plus short-term
investments to assets 26 was 9.21percent (Peer 17.01), and the ratio of total loans to
total shares was 75.13 (Peer 70.95). By June 2007, when NCUA placed Cal State 9
under Special Actions, the ratio of cash plus short-term investments to assets was 2.63
percent (Peer 16.58), and the ratio of total loans to total shares was 101.79 percent
(Peer 79.00). See Appendix B for other liquidity ratios and trends.



25
   With [loan] recourse agreements, there are three types of recourse: full recourse, limited recourse and no recourse.
Under full recourse, the dealer [i.e., seller] must purchase the loan at the credit union’s demand. Limited recourse
requires the dealer to buy back the loan or repossess the goods if the credit union fulfills certain obligations. With no
recourse, the dealer has no obligation on the loan unless fraud or misrepresentation was involved.
26
   See Appendix B for an explanation of cash plus short-term investments.

                                                          16
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



NCUA guidelines indicate that to control liquidity risk, management must understand the
interrelationships of interest rates, mortgage cash flows, prepayment risk, extension
risk, and the effect on the fair value of its assets. Cal State 9 management failed to
maintain the proper perspective of the interrelationships between its high concentration
of variable-rate subprime loans, interest rates, and the California real estate market
environment.




                                               17
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Auditor Observations

Cal State 9 management’s poor strategic decisions, aggressive appetite for asset
growth, and excessive concentrations of sub-prime loans, combined with the declining
California real estate market, and lax internal controls, created a financial situation
where institutional failure was all but assured.

Cal State 9 management initiated a new HELOC program on the heels of a failed auto
lending program and made the material flaw of not moving slowly to limit the credit
union’s exposure. By growing the HELOC program so aggressively, management did
not gain the experience needed to understand and manage the related risks in the
program, which is vitally important when offering any new product or service.

In addition, NCUA has provided guidance to credit union management [and examiners]
addressing the issues that led to Cal State 9’s failure. Table 2 (below) summarizes the
Letters to Credit Unions and Risk Alerts issued to FISCUs between 1991 and 2009 that
provide guidance on issues related to Cal State 9’s failure, such as specialized lending
activities, third-party relationships with brokers, and loan participations:

Table 2

 Year     Reference                 Title
 1991     Letter No. 124            Real Estate Secured by Credit Union Members
 1995     Letter No. 174            Risk-Based Loans
 1999     Letter No. 99-CU-05       Risk-Based Lending
 2001     Letter No. 01-CU-20       Due Diligence Over Third Party Service Providers
 2003     Letter No. 03-CU-11       Non-Maturity Shares and Balance Sheet Risk
          Letter No. 03-CU-15       Real Estate Concentrations and Interest Rate Risk
                                    Management for Credit Unions with Large Positions in
                                    Fixed-Rate Mortgage Portfolios
          Letter No. 03-CU-17       Independent Appraisal Evaluation Functions for Real-
                                    Estate Transactions
 2004     Letter No. 04-CU-13       Specialized Lending Activities
          Risk Alert No. 05-Risk-   Specialized Lending Activities – Third Party Subprime
 2005     01                        Indirect Lending and Participations
          Letter No. 05-CU-07       Managing Risks Associated with Home Equity
                                    Lending
 2007     Letter No. 07-CU-13       Evaluating Third-Party Relationships
 2008     Letter No. 08-CU-09       Evaluating Third-Party Relationships Questionnaire
          Letter No. 08-CU-19       Third-Party Relationships: Mortgage Brokers and
                                    Correspondents
          Letter No. 08-CU-26       Evaluating Loan Participation Programs
 2009     Regulatory Alert No.      Interagency Fair Lending Examination Procedures
          09-RA-09




                                               18
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Furthermore, NCUA issued a series of Letters to Credit Unions between 1999 and
2008, providing guidance on balance sheet risk management and asset-liability
management. Table 3 (below) summarizes the letters issued to credit union
management.

Table 3

 Year     Reference                Title
 1999     Letter No. 99-CU-12      Real Estate and Balance Sheet Risk Management
 2000     Letter No. 00-CU-10      Asset Liability Management Examination Procedures
 2000     Letter No. 00-CU-13      Liquidity and Balance Sheet Risk Management
                                   Liability Management – Highly Rate-Sensitive &
 2001     Letter No. 01-CU-08      Volatile Funding Sources
                                   Supervisory Letter – Evaluating Current Risks to Credit
 2008     Letter No. 08-CU-20      Unions

We believe NCUA has provided credit unions with sufficient guidance on (1) managing
risks associated with home equity lending, (2) balance sheet risk management, asset
liability management, and liquidity management, and (3) loan participation programs.
Therefore, we are not making any recommendations to NCUA regarding these issues at
this time.




                                               19
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



B. California Department of Financial Institutions and NCUA Supervision of Cal
State 9 Credit Union

                             We determined examiners did not adequately assess Cal
     Examiners Could
                             State 9’s new indirect HELOC program during the March
     Have Mitigated the
                             2004 examination, 27 or monitor the credit union’s liquidity
     Loss to the NCUSIF
                             position. 28 In addition, we determined examiners did not
                             respond aggressively or timely enough to Cal State 9’s
increasing credit and liquidity risks. As a result, examiners missed opportunities to slow
or stop the growth of the indirect HELOC program, which would have likely mitigated the
loss to the NCUSIF. We also determined examiners did not assess the impact of Cal
State 9’s loan participations on other financial institutions or the NCUSIF.

California SSA and NCUA Examiners’ Supervision Efforts over Cal State 9 and its
Indirect HELOC Program were not Adequate

We determined examiners did not adequately assess Cal State 9’s indirect HELOC
program and did not respond adequately or timely to the risks facing Cal State 9,
considering: (1) the rate and level of growth of the portfolio; (2) the excessive
concentration of HELOCs, nearly all of which contained subprime elements; and (3) the
continuing changes in the California real estate market environment. Specifically, we
determined examiners did not:

      •   Adequately assess the overall terms and characteristics of the indirect HELOC
          program early on.

      •   Adequately monitor Cal State 9’s liquidity position and did not respond
          aggressively or timely enough to the credit union’s liquidity risk as Cal State 9
          increasingly committed more of its assets to fund the indirect HELOC portfolio.

      •   Respond aggressively or timely enough to Cal State 9’s increasing credit risk
          especially considering the changing real estate market environment.

As a result, we believe examiners’ less than aggressive actions allowed Cal State 9
management to build an excessive concentration of risky HELOCs in an increasingly
adverse real estate market environment. Specifically, we believe examiners should
have required management to establish controls during the early stages of the indirect
HELOC program 29 to monitor and slow the growth of the program. In addition, we
believe examiners should have required management to stop funding HELOCs well
27
   The March 2004 contact was the first examination of Cal State 9 after the credit union had established the indirect
HELOC program in May 2003.
28
   In the supervision of Cal State 9 during the operation of the credit union’s indirect HELOC program, the California
SSA conducted examinations and contacts jointly with the NCUA. NCUA guidance indicates that during joint
examinations, both SSA and NCUA examiners focus on risk issues, while SSA examiners also focus on regulatory
concerns.
29
   Cal State 9 implemented the program in May 2003.

                                                          20
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



before the credit union was placed under NCUA Special Actions 30, which could have
mitigated the loss to the NCUSIF.

California SSA and NCUA representatives provided several factors that influenced their
lack of actions regarding risks associated with the indirect HELOC program.
Specifically:

       •   California SSA representatives explained that a lack of sufficient staff impacted
           their ability to adequately examine Cal State 9.

       •   A former California SSA representative informed us it would have been difficult to
           get Cal State 9 management to stop or slow the HELOC program because the
           credit union’s position was that they were not breaking or violating any laws or
           regulations. The representative added that credit union management was
           adamant with the SSA about this issue.

       •   A California SSA senior examiner told us that because of the lack of losses early
           on in the program, examiners believed that they did not have any leverage to be
           more forceful with the credit union. The examiner added that management did
           not take the risks in the program seriously.

       •   A California SSA representative explained that Cal State 9 management was not
           truthful with examiners. Specifically, the representative stated that during joint
           conferences, Cal State 9 management would make verbal promises, but never
           included what they had promised in their response to the examination reports.

       •   An NCUA official indicated they probably relied too much on the examiners in not
           acting sooner - despite the official’s instincts to the contrary.

NCUA guidance defines risk as the potential that events, expected or unanticipated,
may have an adverse effect on a credit union’s net worth and earnings. NCUA
guidance encourages examiners to focus on activities of increased or higher risk and to
determine that credit unions are completing proper due diligence reviews prior to
engaging in new or expanded activities. As defined in Section A of this report, two of
the seven risk areas examiners review are credit risk and liquidity risk, which address
the current and prospective risks to a credit union’s earnings and capital.

In addition, NCUA guidance indicates that:

       •   Although examiners have discretion in determining areas requiring the most
           attention, examiners’ emphasis should focus on successfully managing future
           risks for credit unions exhibiting existing or potential weaknesses or adverse
           trends.

30
     Cal State 9 was transferred under NCUA Special Actions during the June 2007 contact.

                                                         21
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




     •   Off-site supervision and timely identification of risk trends is a critical component
         of the overall supervision process.

     •   Examiners will consider a credit union’s failure to recognize or properly address
         the risks involved with residential real estate lending as an unsafe and unsound
         lending practice.

     •   Examiners should review new programs that may expose a credit union to higher
         or increased risks. Specifically, examiners should review subprime lending,
         indirect lending, and outsourced lending programs to assess the magnitude of
         risk posed by such programs.

     •   Identifying a potential problem early provides credit union management and
         NCUA with the best chance of resolution without requiring assistance from the
         NCUSIF.

Furthermore, NCUA guidance indicates that when combined with a potentially
overpriced real estate market, the impact of exotic adjustable rate mortgages 31 on credit
risk increases tremendously, especially if interest rates rise and the rate of home
appreciation flattens or declines.

Indirect HELOC Program Not Adequately Assessed

We determined examiners did not adequately assess the new indirect HELOC program
during the March 2004 examination in order to determine the complete terms and
characteristics of the program. Examiners advised Cal State 9 management during the
March 2004 examination that they needed to approach new programs with caution as
the credit union transitioned from its failed participation in an indirect auto lending
program. However, although examiners determined during this examination that the
HELOCs were variable rate mortgages in junior positions with high CLTVs, we found
that it was not until later that examiners learned the full extent of the subprime elements.
Specifically, examiners did not know that:

     •   At inception of the program, nearly 70 percent of the indirect HELOC portfolio
         had CLTVs between 85 percent and 124 percent.

     •   At inception of the program, 39 percent of borrowers’ credit scores were below
         640, which included 15 percent below 600. 32



31
   NCUA guidance indicates that exotic adjustable rate mortgages include such products as interest only, hybrid, and
payment option adjustable rate mortgages.
32
   NCUA guidance indicates that while there is no industry standard range of credit scores that describe subprime
borrowers, those borrowers with credit scores below 620 generally have a higher loan default rate.

                                                        22
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



   •   Most of the HELOCs were stated income loans. In fact, when examiners
       analyzed the portfolio during the December 2005 examination, they learned that
       stated income loans comprised 82 percent of the HELOC portfolio.

   •   Many of the HELOCs were behind negative amortization first mortgages. In fact,
       when examiners analyzed the portfolio during the June 2006 examination, they
       learned that 61 percent of the HELOCs were behind negative amortization first
       mortgages.

   •   The HELOCs had an interest only payment feature, which examiners determined
       during the December 2005 examination.

Furthermore, we found no indication until the March 2007 contact that examiners
recognized that nearly every indirect HELOC included one or more subprime elements.

We believe that if examiners had learned the full extent of the subprime elements within
the HELOC program during the March 2004 examination, they: (1) would have had a
better understanding of the potential magnitude of Cal State 9’s credit risk as the
program grew; and (2) should have required management to establish controls to
monitor the overall growth of this new program and monitor and track its performance,
e.g., slow payers, mortgage rate/payment increases, delinquencies, collateral/CLTV
revaluations, etc.

Liquidity Risk Not Adequately Monitored and Addressed

Although we determined examiners adequately assessed Cal State 9’s liquidity issues
during each supervision contact, we also determined examiners did not adequately
monitor and did not respond aggressively or timely to the credit union’s increasing
liquidity risk.

During the March 2004 examination, examiners determined that Cal State 9 had
adequate liquidity to meet its needs. However, examiners also:

   •   Described the growth of the indirect HELOC program as “explosive”.

   •   Described the credit union’s 26.50 percent total loan growth for the year ending
       December 2003 as “considerable”.

   •   Determined that the credit union’s total loans had a significant growth of 59
       percent (annualized) during the first quarter of 2004.




                                               23
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



     •   Discovered that Cal State 9’s goal for its HELOC portfolio was to reach 60
         percent of total assets by the end of 2006 with a total limit for the portfolio of 75
         percent of total assets.33

Considering examiners’ observations about the rapidly growing indirect HELOC
program, we reviewed the credit union’s financial data as of March 2004 to assess how
the program was impacting Cal State 9’s liquidity position. We determined the credit
union’s liquidity was tightening after less than a year of operating the indirect HELOC
program as demonstrated by the following ratio and trends (Appendix B describes the
relationships between specific ratios and trends, and liquidity). Specifically:

     •   HELOCs had increased 1,520 percent since March 31, 2003 to $74.2 million,
         comprising 50 percent of total loans.

     •   Annualized loan growth significantly exceeded share growth – 58.88 percent to
         4.72 percent respectively.

     •   The ratio of Total Loans to Total Shares was 75.13 percent (peer was 70.95
         percent). 34

     •   The ratio of Cash plus Short-Term Investments to Assets was 9.21 percent (peer
         was 17.01 percent). 35

     •   Cal State 9 had borrowed $31.5 million in short-term funds.

Considering the explosive and considerable growth of the indirect HELOC program and
the liquidity ratios and trends as of March 2004 that illustrated tightening liquidity, we
believe examiners should have closely monitored the growth of the program and its
impact on the credit union’s liquidity leading up to the December 2005 examination.
However, we found no indication that examiners monitored the credit union’s liquidity
ratios and trends between examinations.

We reviewed the credit union’s financial data between examinations (from June 2004
through September 2005) and determined that ratios and trends demonstrated the
credit union’s worsening liquidity position and its increasing liquidity risk. For example:




33
   We found no indication until the June 2006 joint contact that examiners considered the impact of Cal State 9’s
unfunded HELOC commitments in the growth of the program. However, any reference we make to HELOC growth
includes funded HELOCs and unfunded HELOC commitments.
34
   NCUA guidelines indicate that a high loan to share ratio is a key indicator of tightening liquidity.
35
   This liquidity ratio is an indicator of how much available cash the credit union has to meet share withdrawals or
additional loan demand. A low or rapidly declining ratio may indicate the credit union will be unable to meet its
current obligations.

                                                         24
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



As of December 2004:

          HELOCs increased an additional 55 percent from March 2004 to $115 million,
           comprising 68 percent of total loans.

          Loan growth exceeded share growth considerably – 31.6 percent to 3.73
           percent respectively.

          The ratio of Total Loans to Total Shares was 84.1 percent (peer was 75.4
           percent).

          The ratio of Cash plus Short-Term Investments to Assets was 7.1 percent
           (peer was 14.4 percent).

     •   As of September 2005:

          HELOCs increased 36 percent from December 2004 to $156.3 million,
           representing 80 percent of total loans.

          The ratio of Total Loans to Total Shares was 82.38 percent (peer was 78.48
           percent).

          The ratio of Total Loans to Total Assets was 68.60 percent (peer was 67.20
           percent).

          Total Investments 36 declined 12.65 percent (annualized).

          The ratio of Cash plus Short-Term Investments to Assets was 7.01 percent
           (peer 14.29 percent).

          Cal State 9 had borrowed $15.3 million in short-term funds, with a $52 million
           line of credit (LOC).

          Cal State 9 had sold 956 non-recourse participation loans year-to-date,
           valued at $55 million. 37

          Share certificates had increased 83 percent since December 2004 from $43
           million to $78.6 million. 38




36
   NCUA guidelines indicate that declining investments are a key indicator of tightening liquidity.
37
   NCUA guidance indicates loan participation sales may provide selling credit unions with a means to manage
liquidity risk.
38
   NCUA guidance indicates that a credit union attracting shares by paying above market rates may provide an
indication of liquidity concerns.

                                                       25
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



An NCUA examiner indicated during their review of the December 2005 joint
examination that the HELOC program presented potential red flags, and that trends
should be monitored and assessed quarterly with credit union management. Although
we noted that between December 2005 and March 2007, examiners adequately
identified Cal State 9’s increasing liquidity needs and management’s efforts and
shortfalls in managing these needs, we found no indication during this period that
examiners conducted a trend analysis to better assess Cal State 9’s liquidity risk. In
addition, although Cal State 9’s liquidity position was worsening, examiners did not
require management to slow the growth of the program early on or to stop funding
indirect HELOC loans prior to being placed under Special Actions during the June 2007
contact. Specifically:

     •   During the December 2005 examination, examiners asked management to
         respond to their DOR comment regarding placing a limit on the growth of the
         portfolio as a percentage of loans. However, examiners did not recommend what
         that limit should be, but more importantly, they did not place any requirements on
         management to establish more stringent controls over the program.

     •   During the June 2006 joint contact, although examiners required management to
         develop a plan to reduce the concentration of HELOCs, they did not require the
         credit union to: (1) implement the plan; or (2) slow the growth of or stop future
         funding of the HELOC portfolio.

     •   During the March 2007 joint contact, although examiners required management
         to implement specific plans to reduce the excessive concentration of HELOCs,
         examiners allowed management to decide whether to “reduce or halt” future
         funding of HELOCs. Despite the critical liquidity risk, examiners did not require
         management to stop the program.

Within weeks of completing the March 2007 contact, SSA and NCUA officials conducted
a June 2007 supervision contact to evaluate Cal State 9 as it was being transferred
under NCUA Special Actions.39 During the contact, SSA and NCUA officials
determined that Cal State 9’s liquidity risk was high and the risk to the NCUSIF was
extensive, indicating the HELOCs were in severe distress and illiquid and
determining Cal State 9's solvency was questionable at best. Further aggravating Cal
State 9’s liquidity issues, during the June 2007 contact, Western Corporate (WesCorp)
required Cal State 9 management to liquidate the credit union’s investment portfolio to
pay down its LOC and significantly reduced the credit union’s available LOC from $90
million to $25 million. In an attempt to maintain liquidity, management began offering
high [dividend] rate share certificates. However, when management eventually reduced
the share certificate rate to market, depositors began withdrawing their funds from the
credit union. Ultimately, NCUA officials determined during the September 2007 contact

39
  The March 2007 contact was conducted between April and June 2007 and the June 2007 contact was conducted
between July and August 2007.

                                                    26
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



that Cal State 9’s problems were so pervasive and severe; the only resolution would be
a P&A.

We believe that as a result of examiners’ lack of adequate monitoring and not taking
aggressive supervisory actions, examiners missed numerous opportunities during or
between contacts to slow or stop the funding of indirect HELOCs. Ultimately, we
believe if examiners had taken more aggressive actions sooner, they would have likely
mitigated the loss to the NCUSIF.

Credit Risk Not Adequately Addressed

Although we determined examiners adequately assessed Cal State 9’s increasing credit
risk during each supervision contact, we also determined examiners did not respond
aggressively or timely to that risk. Specifically, we determined examiners did not
require Cal State 9 management to: (1) improve its underwriting standards for the
indirect HELOC program; or (2) limit or reduce its concentration of risky HELOCs,
especially considering the declining California real estate market environment.

To determine whether: (1) examiners were aware of changes in the California real
estate market environment; and (2) Cal State 9’s indirect HELOC portfolio was
potentially being impacted by these changes, we reviewed examination reports, real
estate industry information, and credit union financial data.

We determined that between June 2003 and December 2005, the Federal Reserve had
increased the prime interest rate 13 times from 4 percent to 7.25 percent, and four more
times to 8.25 percent by June 2006. In addition, we obtained data regarding the status
of the California real estate market during the period Cal State 9 funded HELOCs. (See
Appendix C for specific details about changes in the California real estate market during
the period surrounding Cal State 9’s indirect HELOC program.) Specifically, in August
2005, the Credit Union Times published an article indicating that 25 cities in California
were overvalued and were at “high risk of price declines”. 40 The article indicated that
the overvaluations ranged from 30 percent to 69 percent. Also, NCUA issued guidance
in September 2005 indicating that from 2001 through 2005, home prices in California
had doubled. 41 Furthermore, The Consumer Federation of America42 reported that in
certain California markets with high concentrations of non-traditional mortgages,
foreclosure rates in the fourth quarter of 2005 were much higher than in the previous
year. 43

We determined that examiners: (1) appropriately advised Cal State 9 management of
their concerns regarding the credit risk created by the high concentration of subprime
40
   The article was entitled: Economist says Home Prices Have Risen to “Extremely Overvalued” Levels in 53 Cities.
41
   This data is according to the National Association of Realtors.
42
   Consumer Federation of America is an advocacy, research, education, and service organization that has been in
existence since 1968 and has a membership of approximately 300 nonprofit organizations.
43
   Exotic or Toxic? An Examination of the Non-Traditional Mortgage Market for Consumers and Lenders (Allen J.
Fishbein, Patrick Woodall), May 2006.

                                                        27
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



indirect HELOCs (as discussed in section A); and (2) were generally aware of changes
in the California real estate market and the potential impact on Cal State 9’s credit risk.
For example:

   •   During the March 2004 examination, examiners determined that the indirect
       HELOC portfolio had increased Cal State 9’s credit risk.

   •   During the December 2005 examination, examiners determined that Cal State 9
       had assumed more credit risk from its HELOC portfolio. In addition, examiners
       indicated that although the credit union had not experienced significant losses in
       the portfolio to date, the program had only been in place since the beginning of
       2003, when interest rates were at their lowest point in years. Examiners advised
       management: (1) that loan products with liberalized features and underwriting
       standards carry higher levels of credit risk and that the [subprime] stated income
       feature of the HELOCs and the high concentration risk meant the credit union
       could potentially have higher losses; (2) that given the credit union’s high credit
       risk exposure from the HELOC portfolio, they needed to re-evaluate the validity
       of their stress tests to assure they made informed decisions; and (3) to monitor
       the performance of the HELOC portfolio closely.

   •   During NCUA’s review of the December 2005 examination, NCUA indicated that
       (1) seasoning of the HELOC portfolio would take some time, (2) delinquency
       trends could emerge if local market conditions declined, and (3) the credit union’s
       stress testing showed the ability [of the portfolio] to withstand up to 20 percent
       declines in local markets without any adverse impacts.

   •   During the June 2006 contact, examiners indicated that if market values declined
       and interest rates rose, the risk associated with Cal State 9’s high concentration
       of indirect HELOCs would materialize. The examiners’ concern was that there
       was a risk of much higher loan losses in the long-term as interest rates rose and
       reached levels beyond which a percentage of the borrowers could afford to make
       the monthly payments, while market values declined below the initial appraisal
       values, thereby increasing the CLTV. Examiners noted that market values had in
       fact been softening and interest rates had been rising.

   •   By the March 2007 contact, examiners had determined that most of the HELOC
       loans had multiple elements of subprime lending, and that the credit risk in the
       rapidly expanding HELOC program was starting to surface. In addition,
       examiners indicated there was a significant potential credit risk because of
       optimistic appraised [home] values, unreasonable stated incomes, and negatively
       amortizing first mortgages.

NCUA guidance indicates a drop in real estate property values coupled with the
unanticipated burden of increased payments as interest rates rise will likely result in
hardship for borrowers and could cause default rates to increase. In addition, NCUA

                                               28
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



examiners explained that if borrowers paid only minimum payments until their loans
reached negative amortization limits, borrowers could be forced into significantly higher
payments in as little as two years. 44

We reviewed Cal State 9’s delinquencies and noted that the credit union’s default rates
began increasing early on. Specifically, during the December 2005 examination,
examiners determined that although total delinquencies were 0.80 percent (peer was
0.80 percent), delinquencies for indirect HELOCs had increased over 300 percent since
December 31, 2004. We determined that nearly $5 million (78 percent) of the total
delinquent loans at this time were HELOCs. By the June 2006 supervision contact, total
delinquencies had more than doubled to 1.65 percent (peer was 0.63 percent). We
determined that by this time delinquent HELOC loans had increased to $11.8 million
over the six month period and were 92 percent of the total delinquent loans. The
following two charts illustrate Cal State 9’s total loan delinquency rates and the HELOC
portfolio’s delinquency totals between December 2005 and June 2007:

                                   Chart 4: Total Delinquency Ratio


          7%
                                                                                              Peer
          6%                                                                                  Delinquencies
          5%

          4%                                                                                  Cal State 9
                                                                                              Delinquencies
          3%
                 0.80%




                                                                               0.80%
                                                           0.75%
                                                 0.69%




          2%
                                                                     0.67%
                           0.65%



                                       0.63%




          1%

          0%
               Dec-05    Mar-06      Jun-06    Sep-06    Dec-06    Mar-07    Jun-07




44
  Officials indicated the loans in the Cal State 9 portfolio allowed negative amortization of between 110 percent and
125 percent of the original first mortgage amount. Once members reached the maximum permitted negative
amortization, the first mortgagee amortized the full balance over the remaining term of the loan.

                                                          29
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




                                        Chart 5: HELOC Delinquencies



                $45
     Millions




                $40
                $35
                $30
                $25
                $20
                $15
                $10
                 $5
                 $-
                      Dec-05   Mar-06   Jun-06   Sep-06   Dec-06   Mar-07   Jun-07



We analyzed Cal State 9’s delinquency data as of July 2007 and believe increasing
borrower mortgage payments over time had a role in Cal State 9’s increasing
delinquencies. 45 For example, NCUA officials determined that 318 HELOCs delinquent
at least 30 days were originated between August 2003 and June 2006. One hundred
eighty one of those HELOCs were also delinquent at least 60 days.

We determined that despite: (1) examiners’ warnings regarding the risk of weak
underwriting standards and the credit risk Cal State 9 faced as a result of the indirect
HELOC program; (2) trends in the California real estate market environment impacting
Cal State 9’s credit risk; and (3) the rapidly increasing rate of HELOC delinquencies,
examiners did not require management to strengthen the program’s underwriting
standards, and either reduce the credit union’s extremely high concentration of risky
HELOCs or stop funding risky HELOCs in a timely manner. Specifically:

        •       Despite examiners: (1) indicating during the December 2005 examination that the
                indirect HELOC portfolio had a high percentage of stated income loans, and that
                changes to underwriting standards46 combined with the HELOC’s interest only
                payment feature and high levels of high appreciation in California home prices
                increased Cal State 9’s potential credit risk; and (2) recommending that Cal State
                9 management establish maximum acceptable limits on the percentage of stated
                income loans to the total portfolio, examiners did not require management to
                strengthen its underwriting standards.

45
   As previously discussed, examiners indicated there was a risk of much higher loan losses in the long-term as
interest rates rose and reached levels beyond which a percentage of the borrowers could afford to make the monthly
payments. Also as previously addressed, the Federal Reserve had increased the prime interest rate 13 times from 4
percent to 7.25 percent between June 2003 and December 2005, and four more times to 8.25 percent by June 2006.
46
   We were unable to determine from examination workpapers what these changes were.

                                                            30
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




     •   Despite observations and their recommendation regarding Cal State 9’s
         underwriting standards in the December 2005 examination, examiners only noted
         during the June 2006 contact that the credit union’s underwriting guidelines were
         fairly comprehensive and detailed. In addition, although delinquencies had
         increased more than 137 percent 47 to nearly $12 million in the six months
         between December 2005 and June 2006, examiners did not require
         management to reduce the credit union’s excessive concentration of HELOCs.48
         As a result of this contact, examiners required management to develop and
         provide the SSA and NCUA a plan to reduce the concentration of HELOCs.
         However, they did not require management to implement the plan.

     •   During the March 2007 contact, examiners determined Cal State 9 management
         was still using the February 2005 underwriting guidelines. Examiners advised
         management that if any future loan funding was permitted, underwriting
         standards must be more stringent to mitigate ongoing risk. In addition,
         examiners determined that management had not reduced the credit union’s high
         concentration of indirect HELOCs even though NCUA officials believed Cal State
         9 management had agreed to do so. 49 Examiners also determined the credit
         union’s delinquencies, loan losses, and foreclosure activity had increased sharply
         since the last contact and that potentially falling real estate prices made these
         conditions worse. 50 Furthermore, examiners indicated that they expected
         delinquencies and foreclosures to increase as the residential real estate market
         softened. As a result of this contact, examiners finally took definitive action,
         requiring Cal State 9 management to reduce its concentration of HELOCs. 51
         Examiners’ action during the March 2007 contact was much too late as
         confirmed during the next contact (June 2007) when officials from NCUA Special
         Actions determined that the HELOCs were already in severe distress and illiquid
         and Cal State 9's solvency was questionable at best.

     •   During the June 2007 contact, Cal State 9 was assigned to the responsible
         NCUA Region’s Division of Special Actions due to the credit union’s deteriorating
         financial condition. NCUA officials from Special Actions drafted a Temporary
         Cease and Desist (C&D) Order. In addition, at the conclusion of the contact,
         NCUA officials provided the credit union with the lowest CAMEL rating even
         though SSA officials chose not to lower Cal State 9’s CAMEL score from the prior

47
   This was an annualized rate of 274 percent.
48
   As of June 2006, Cal State 9’s HELOC portfolio represented 91 percent of the credit union’s total loans.
49
   Examiners indicated that at the conclusion of the June 2006 contact, Cal State 9 management had verbally agreed
to reduce the concentration in the HELOC portfolio from 65 percent to 50 percent or less of assets within the next six
months.
50
   We reviewed the credit union’s financial data and determined that as of March 2007: (1) delinquencies had
increased significantly from the June 2006 contact to $29 million, and (2) losses from the HELOC portfolio had
skyrocketed 1,225 percent to approximately $2 million since the December 2005 examination.
51
   NCUA regional officials told the OIG that they instructed examiners to require Cal State 9 management to stop
funding new HELOCs and to sell existing HELOCs.

                                                         31
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



           contact. Furthermore, an NCUA official told the OIG that in July 2007, SSA
           officials were not convinced a C&D was necessary at that time. 52

Again, NCUA and SSA officials’ efforts during the June 2007 contact were much too late
to protect the NCUSIF. NCUA officials indicated during the September 2007 contact -
three months after the June 2007 contact - that Cal State 9 represented a significant
risk to the NCUSIF, with problems so pervasive and severe that even conservatorship
of the credit union would not restore the safe and sound operations.

The following charts illustrate Cal State 9’s rapidly increasing HELOC losses and Net
Income/Loss, and its significantly declining Net Worth ratio, respectively, between
March 2007 and December 2007.


                                          Chart 6: HELOC Losses and
                                              Net Income/Losses


                       $10
                                                                                       HELOC
            Millions




                         $-                                                            Losses

                       $(10) Mar-07        Jun-07             Sep-07          Dec-07
                                                                                       Net
                       $(20)                                                           Inc/Loss

                       $(30)

                       $(40)

                       $(50)

                       $(60)

                       $(70)




52
     The SSA issued a Final Order (C&D equivalent) in early September 2007.

                                                        32
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




                                 Chart 7: Net Worth Ratio



                8.55%
       10%
        8%                       6.44%

        6%
        4%
        2%
        0%
       -2%                                          -2.02%
       -4%
       -6%
                                                               -6.96%
       -8%


We asked a former senior SSA official why the SSA did not take actions to slow or stop
Cal State 9’s indirect HELOC program as its credit risk and concentrations were
increasing. The official told the OIG there were two factors that they believed influenced
the SSA’s supervisory oversight surrounding the period in which Cal State 9 operated
its indirect HELOC program. Specifically, the official indicated:

   •   The Administration in the White House at the time was pushing for less
       regulation [of the mortgage lending industry]; and

   •   NCUA was pushing for lower regulatory net worth requirements, which would
       encourage credit unions to make more loans.

We agree there were factors during the real estate boom that encouraged increased
mortgage lending. However, we found nothing to suggest these factors: (1) encouraged
credit unions to concentrate a majority of their assets in poor quality loans; or (2)
absolved regulators of their responsibility to not only recognize, but also take
appropriate and timely actions to address risks to a credit union’s net worth and
earnings.

Based on the rapid rate of growth and the increasing concentration of risky HELOCs,
we believe that not only should examiners have required management to monitor the
performance of the HELOCs early on, they should have also required management to
strengthen the program’s underwriting standards. Furthermore, we believe examiners
should have ultimately required management to either reduce the credit union’s
concentration of risky HELOCs sooner or stop the indirect HELOC program in light of

                                               33
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



the changing California real estate market. We believe these actions would have likely
mitigated the loss to the NCUSIF.

Loan Participations Not Addressed

We determined examiners did not evaluate Cal State 9’s loan participation program until
after Cal State 9 was placed under NCUA Special Actions to determine whether safety
and soundness concerns existed. We determined Cal State 9 sold non-recourse
participations 53 to other financial institutions over the period they operated the indirect
HELOC program. However, we found no evidence examiners conducted a review to
assess the adequacy of Cal State 9’s risk analysis, strategic planning, or due diligence
over Cal State 9’s participation program. 54 As a result, examiners did not identify the
potential liability, or risks that loan participations represented to Cal State 9, other
financial institutions, or ultimately, to the NCUSIF.

NCUA recently issued guidance 55 indicating that despite the benefits of loan
participation programs, there are potential risks. Specifically, the guidance indicates
loan participations expose a credit union to credit, interest rate, liquidity, transaction,
compliance, strategic, and reputation risks.56

We determined Cal State 9’s management sold nearly $190 million in non-recourse
participations from 2003 through 2007. The following chart illustrates Cal State 9’s
year-to-date participation sales as of December of each year. 57




53
   Cal State 9 sold non-recourse participations to three credit unions and one bank.
54
   Risk assessment, strategic planning, and due diligence assure that officials are fully informed about the program
and provide the opportunity to design and implement procedures and controls to mitigate the risks.
55
   NCUA issued Letter No. 08-CU-26, Evaluating Loan Participation Programs, November 2008,
56
   The degree of risk varies depending on factors such as whether the credit union is the seller or buyer, the sale is
with or without recourse, and the complexity of the individual loans.
57
   Cal State 9’s financial data for 2004 indicated the value of participation loans sold year-to-date dropped from $15.7
million to $2.5 million between September and December 2004 while the number of loans sold increased. We found
no explanation for this decrease. Therefore, for 2004 we used the participation loans year-to-date as of September
2004.

                                                          34
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




                           Chart 8: Participations Sold Year-To-Date


                     $80
          Millions


                     $70
                     $60
                     $50
                     $40
                     $30
                     $20
                     $10
                      $0
                            Dec-03   Sep-04   Dec-05        Dec-06   Dec-07



Despite these participations sold, the only discussions we found in examiners’
workpapers regarding Cal State 9’s participation program were general comments that
Cal State 9 management was selling participations to help meet its liquidity needs.

Auditor Observations: NCUA’s total analysis process and risk-focused examination
process guide examiner judgment by providing the requisite and appropriate tools and
guidance with which to assess the safety and soundness of credit union operations and
any risk to the NCUSIF. Examiners used these processes to adequately identify the
increasing credit risk created by Cal State 9’s indirect HELOC program and used their
judgment to identify the impact a changing real estate market could have on the risky
portfolio. However, despite what the examination processes revealed early on,
examiners and officials indicated they believed they did not have the leverage to be
more forceful with management in order to limit the indirect HELOC program.

We believe examiners relied too heavily on management’s statements and
presentations regarding the credit union’s risk management program rather than
focusing on the magnitude of the credit risk the examination processes revealed. We
also believe examiners did not use available mechanisms to timely and adequately test
and monitor the portfolio to validate or dispute management’s asserted ability to
manage the risks through monitoring reports. For example, during the June 2006
limited high-level review of the indirect HELOC program, examiners indicated
management was proactive and had good risk management systems in place.
However, examiners also noted that management had not implemented
reviewing/tracking procedures to determine the impact of negatively amortizing first
deeds of trust.



                                                       35
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Despite their observations and recognizing the significant credit risk created by the
concentration of sub-prime HELOCs in a softening real estate market, examiners rated
Cal State 9’s credit risk as moderate as a result of the June 2006 contact. However,
during the March 2007 contact, almost four years into the program, the examination
process led examiners to affirm that although management generated an impressive
amount of monitoring for risk management purposes, some critical elements were not
being captured and such reporting does not mitigate risk. Examiners also indicated the
impact of making high CLTV loans behind negatively amortizing first mortgages was
starting to have an effect and the softening real estate market would drive losses up.
Consequently, examiners increased Cal State 9’s credit risk to high. However, this
change in judgment based on sound examination processes was too little too late as
NCUA officials determined shortly thereafter - during the June 2007 contact - that the
HELOCs were already in severe distress and illiquid and Cal State 9's solvency was
questionable at best.

Examiners should have relied more heavily on the NCUA’s examination processes,
which more than adequately revealed the prospective risk the indirect HELOC program
represented to the safety and soundness of the credit union. Examiners should not
have put as much confidence in management’s asserted ability to adequately monitor
and make adjustments to the portfolio as delinquencies within the portfolio began to
surface as early as December 2004 and increased dramatically as management
continued to fund these poor quality loans. More significantly, examiners should not
have waited for the actual losses that their analysis indicated would occur under a
changing market environment. We believe had examiners relied on the processes
throughout the supervision of the credit union, maybe they would have realized sooner
that management’s risk management program would not and could not stem the
inevitable losses in this sub-prime portfolio, which was worsened by the changing real
estate market.

NCUA also has the appropriate means with which to address serious credit union
problems. Although SSA’s are primarily responsible for supervision of federally insured
state-chartered credit unions and their regulatory issues, NCUA must put its legal and
fiduciary responsibility to ensure the safety of the NCUSIF ahead of all other issues and
challenges – whether from credit union management or SSA officials. NCUA should
ensure examiners fully employ and rely on the examination processes and trust the
current and prospective risks to a credit union these processes reveal in order to avoid
increased safety and soundness issues, failures and losses to the NCUSIF.

Regarding Cal State 9’s participation program, we believe examiners merely viewed Cal
State 9’s participation sales as a means to manage the credit union’s balance sheet
risk. We also believe Cal State 9 management entered into their participation program
too quickly without conducting proper due diligence to slowly gain the necessary
experience over time to effectively operate such a program. We believe examiners
should have (1) assessed whether Cal State 9 conducted proper due diligence before
entering into the participation arrangements, and (2) evaluated during each supervision

                                               36
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



whether the participations presented any risks to Cal State 9, other credit unions, and
the NCUSIF.




                                               37
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Appendix A – Examination History

The following table provides California SSA and NCUA supervision contacts conducted
from when Cal State 9 implemented the indirect HELOC program in May 2003 through
the September 2007 joint contact when Cal State 9 was conserved. The information
provided is limited to key findings and Document of Resolution (DOR) items associated
with the indirect HELOC program.

                           Code 11 Joint Examination
 March 31, 2004
 Effective Date
                           Completed August 2004
 •   Examiners indicated Cal State 9 had begun to transition from a failed CUDL program
     (which had saturated the credit union’s loan portfolio with a large number of poor
     quality loans) to a variable rate HELOC program operated indirectly through a
     third-party.

 •   Examiners recognized the “explosive” growth of the HELOC portfolio since inception
     of the program and indicated that the HELOC portfolio had increased Cal State 9’s
     credit risk.

 •   Examiners described Cal State 9’s total loan growth as considerable at 26.50
     percent for the year ending December 2003 and an even larger growth of 59 percent
     (annualized) for the first quarter of 2004. The examiners indicated this was due
     primarily to the proliferation of the indirect HELOCs.

 •   Examiners learned the indirect HELOCs were all variable rate mortgage loans in
     junior positions, 58 usually with high loan-to-value (LTV) ratios.

 •   Examiners determined Cal State 9 had adequate liquidity to meet its needs.

 DOR - Examiners required the credit union to:

     •    Implement a revised loan policy that included limits on the dollar amount
          outstanding on each loan in risk tier59 of grade “C” 60 and below for all risk-based
          priced loans as a percentage of loans and a percentage of net worth.




58
   A junior mortgage is one for which a claim against the property will be satisfied only after prior mortgages have
been repaid.
59
   Cal State 9 HELOCs were segregated by risk tier based on borrower credit scores from high to low in six tiers from
A+ (730 – 900) through E (less than 550) and by combined loan-to-value (CLTV) ratios (80 or less, 80+ to 90, 90+ to
100) within each tier.
60
   Tier “C” loans include loans for borrowers with credit scores of 639 and below.

                                                         38
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



 Examiners also recommended to the credit union that:

       •    When management observed an adverse trend or was not attaining the desired
            goals, perform in-depth analysis to isolate the cause.

       •    When the cause had been determined, carefully study the situation to determine
            if something could have been done to improve the situation.

       •    As each change was implemented, closely monitor the changes to ensure that
            the changes were positive and helping management to attain their desired goals.
            If not, try a different strategy.


                             Code 11 Joint Examination
 December 2005
                             Started January 2006
 Effective Date
                             Completed March 2006
 Examiners concluded that Cal State 9 was in satisfactory condition.

 •     Examiners indicated:

           The HELOC portfolio was “fast growing”, indicating the portfolio 61 had grown 74
            percent in the previous twelve months, with approximately 30 percent of the
            growth occurring in the last quarter of 2005.

           Cal State 9 management had to borrow to fund its HELOCs and meet liquidity
            needs.

           Cal State 9 management had increased dividend rates to attract shares, had
            liquidated investments and sold participations in order to meet the credit union’s
            liquidity needs.

           The credit union’s goal was for the HELOC portfolio to reach 60 percent of total
            assets by the end of 2006 with a total policy limit of 75 percent of assets.

 •     Regarding CREDIT RISK, examiners determined:

           The credit union had assumed more credit risk from its fast growing indirect
            home equity line of credit (HELOC) loan portfolio.

           The indirect HELOC loans were in a junior position and had an interest only
            payment feature, adding that this payment feature combined with changes to
61
     Net of HELOC loans sold through participations.

                                                       39
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



          underwriting standards and high levels of home price appreciation in California
          increased potential credit risk.

         The HELOC loans carried a higher potential level of credit risk than the standard
          80 percent LTV, 30 year fixed rate first mortgage even without considering loans
          with negative amortizations.

         Eighty-two percent of the indirect HELOC portfolio was stated income loans and
          represented a greater chance that some of the income reported to Cal State 9
          may have been inflated.

         Stated income loans coupled with the high concentration risk meant the credit
          union could potentially have higher losses. They recognized that if home prices
          stayed flat or declined, borrowers could owe more than the property was worth.

         While Cal State 9 management developed a stress test during the examination,
          the test contained flaws. The test did not appear to take into consideration that
          the credit union was in a junior position and stood to lose potentially more than
          the test results showed. 62

         Although the credit union had not experienced significant losses in the portfolio to
          date, the program had only been in place since April 2003 [sic], when interest
          rates were at their lowest in years. They added that there had not been sufficient
          time for real estate to go through an entire cycle of up and down markets in real
          estate values.

         Examiners indicated Cal State 9’s high policy limit for the HELOC loan
          concentration was not supported by an analysis that assessed the potential effect
          on the credit union’s overall risk profile.

         Delinquent indirect HELOC loans increased from $344,000 at 12/31/04 to
          $1,389,800 as of 12/31/05.

         Examiners noted that the prime rate had adjusted upward eight times during
          2005.

         The HELOC portfolio was segmented reasonably well so the various tiers and
          combined loan-to-values (CLTVs) were not concentrated in riskier loans.

 •   Regarding LIQUIDITY RISK, examiners determined Cal State 9’s liquidity was
     “inadequate”.


62
  The stress test segmented the portfolio by combined loan-to-value, negative amortizing loans, and stated income
loans for each tier.

                                                       40
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



 DOR - Examiners required Cal State 9 to respond to the following items and report on
 the corrective actions taken:

        •   Regarding Indirect HELOC Policy & Procedures:

               Add a percentage of total loans limitation.

               For monitoring HELOC delinquency, develop a list of chronic and habitual
                slow payers and perform added risk analyses on this group, e.g. current
                credit check, current collateral valuation, and current debt analysis.

               The credit union does not prepare cash flow analyses, which can help the
                credit union plan when to increase or decrease liquidity cost-effectively.

               Other procedures as described in the Examination Overview. NOTE: In
                the Examination Overview, because of the credit union’s high
                concentration of indirect HELOC loans and the potential credit risk in the
                portfolio, examiners recommended that Cal State 9:

                 Perform a stress test at least quarterly.

                 Support future loan concentration changes with a stress test.

                 Establish a floor limitation using the results of the stress test.

                 Consider developing contingency strategies for scenarios and
                  outcomes that exceed established floor limitations. Contingency plans
                  might include increased monitoring, limiting growth, and selling loans
                  or portfolio segments.

                 Establish limits on tiers and combined loan-to-value ratios especially in
                  the lower tiers.

                 Develop a list of chronic and habitual slow payers and perform added
                  risk analysis on these borrowers such as running a current credit
                  check, reviewing current collateral valuation, and performing a current
                  debt analysis, paying particular attention to borrowers who become
                  delinquent on their loan due to capacity issues.

                 Establish maximum acceptable limits on the percentage of “stated
                  income” loans to the total portfolio of indirect HELOCs by tier.




                                               41
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



                         Code 23 Contact.
June 2006
                         Started August 2006
Effective date
                         Completed October 2006
Examiners concluded that that the credit union had a sound risk management program
in place and was monitoring specific items related to the HELOC program. However,
examiners also determined the program needed to be strengthened in various areas
including liquidity management and concentration risk management.

•    Examiners described the credit union’s concentration risk as high.

•    Regarding CREDIT RISK, examiners:

        Noted that as of July 31, 2006, 88 percent of the $242.3 million HELOC portfolio
         ($213 million) was stated income loans and $147.6 million of the portfolio (61
         percent) was behind negative amortization first deeds of trust.

        Noted that while the lowest credit grades (D and E paper63) did not have CLTVs
         above 90 percent, B, C, and D graded paper64 had high delinquency rates and E
         graded paper65 had an extremely high delinquency rate.

        Indicated that the risk of such a high concentration of indirect HELOCs would
         materialize if there was a steep decline in the market values while the interest
         rates rose to levels above the borrower’s ability to make full monthly payments.

        Noted that market values had been softening and interest rates had been
         creeping up, adding that while charge-offs had been low, Cal State 9 had only
         started this program in April 2003 when interest rates had been at their lowest in
         years.

        Expressed concern that the risk of much higher loan losses could be anticipated
         in the long-term as interest rates rose and reached levels beyond which a
         percentage of the borrowers could afford to make the monthly payments, while
         the market values declined below the initial appraisal values, thereby increasing
         the CLTV.

•    Regarding LIQUIDITY RISK, examiners:

        Determined the credit union had low liquidity.


63
   Credit scores below 600.
64
   Credit scores between 550 and 679.
65
   Credit scores below 550.

                                               42
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



      Determined Cal State 9 had not formalized its liquidity program with established
       parameters and report requirements.

      Indicated that management must develop and document specific liquidity limits
       and include liquidity projections and analysis in the monthly Assess/Liability
       Committee (ALCO) package.

      Noted that management had increased its dividend rate to attract more shares or
       borrowed funds to maintain sufficient liquidity for its loan demand.

DOR: Examiners required (by January 2, 2006):

   •   Cal State 9 to develop a plan to address the concentration risk of the indirect
       HELOC lending program, with an emphasis on reducing exposure on the balance
       sheet. Incorporate plans to reduce high concentration through any combination
       of increased loan sales, reduced loan originations, loan amortizations, etc., with a
       target to reach established goals within 120 days.

   •   Submit their plan for reducing concentration to the Department and NCUA for
       review and approval.

   •   Formalize the credit union’s liquidity management procedures into written policies
       and incorporate into the ALCO’s oversight. Establish and incorporate liquidity
       parameters and reporting requirements. Include off-balance sheet elements of
       the liquidity management program (i.e. borrowings, unfunded contingencies of
       HELOC loans, real estate loan sales, etc) and contingency plans in the event
       liquidity sources were impacted.

   •   Respond to items in the Examiner’s Findings section of the report. In the
       Examiner’s Findings, examiners requested Cal State 9 to comment on the
       following items and report the corrective actions taken:

          Management and the board have not developed a definition for “high-risk”
           indirect loans. The board has not set a limit of “high-risk” indirect loans as
           percentage of net worth (the limit should not exceed 100% of net worth).

          The credit union does track current combined loan-to-value (CLTVs) for
           individual loans on an on-going basis. It is recommended that management
           use credit bureau data periodically to monitor and manage CLTVs.

          Management has not implemented review and tracking procedures to
           determine the impact to the HELOC loan portfolio due to negatively
           amortizing first deeds of trust. Incorporate appropriate credit bureau data to
           track CLTV on an ongoing basis to detect any potentially adverse impacts.

                                               43
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




          The credit union started reviewing and tracking these loans during fieldwork.
           These procedures should be performed on an ongoing basis.

          Prepare and submit results of CLTV analysis to the board.


                     Code 23 Contact
March 2007
                     Started April 2007
Effective Date
                     Completed June 2007
Examiners determined:

   •   The board of directors had not reduced the high concentration of indirect
       HELOCs as recommended.

   •   The high concentration of HELOCs combined with multiple layering of sub-prime
       risk elements presented a level of risk that was not acceptable.

Regarding CREDIT RISK, examiners:

   •   Indicated credit risk in the rapidly expanding HELOC program was starting to
       surface.

   •   Indicated the impact of making high CLTV loans behind negatively amortizing
       first mortgages was starting to have an adverse effect on the credit union.

   •   Delinquency, loan losses and foreclosure activity had increased sharply since the
       last exam, conditions that were made worse by potentially falling real estate
       prices. Examiners noted delinquencies had grown from 0.80 percent as of
       December 2005 to 4.71 percent as of December 2006. They added that
       delinquencies would likely remain high for the coming months due to problems
       with subprime elements of the portfolio.

   •   Explained that although the credit union did not grant loans exclusively to
       subprime borrowers, nearly all of the HELOC loans had elements of sub-prime
       lending and most had multiple elements, including high CLTV, low credit scores,
       stated income, and negative amortizing first deeds of trust. Examiners added
       that these risk elements were made worse by potentially falling real estate prices.

   •   Indicated there was a significant potential credit risk because of optimistic
       appraised values, unreasonable stated incomes, and negatively amortizing first
       mortgages up to 110 percent.

                                               44
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




     •   The high percentage of stated income loans still did not appear to have been
         evaluated for reasonableness.

     •   Indicated that the number of loans with a CLTV of 89 percent was very high, but
         the credit union did not include them as high risk.

Regarding LIQUIDITY RISK, examiners:

     •   Determined Cal State 9 had not been able to manage its liquidity problems.

     •   Noted that the credit union had borrowed $61.1 million as of April 2007.

     •   Indicated that they expected the credit union’s liquidity problems to increase.

DOR: Examiners placed 20 specific requirements on Cal State 9 management
including (by August 13, 2007) to:

     •   Implement immediate action to reduce the HELOC loan portfolio by a minimum
         of $30 million per quarter until such time as appropriate concentration levels were
         reached (a percentage of total assets or as a multiple of net worth). Reduce or
         halt future funding until established goals are reached.

     •   Establish minimal interim benchmarks for reduced HELOC concentration levels
         to the greater of the following:

            June 2007 – 55 percent of total assets, or 6.4 times net worth dollars 66
            September 2007 – 50 percent of total assets, or 5.6 times net worth dollars
            December 2007 - 45 percent of total assets, or 4.8 times net worth dollars
            March 2008 – 40 percent of total assets, or 4 times net worth dollars

     •   Obtain current market values of your HELOC loan portfolio.

     •   Verify a representative sample of stated income loans to determine the margin of
         error on members' income levels.

     •   Place additional limits on use of stated income loans based on the results of this
         analysis by limiting credit scores, adjusting debt ratio limits, etc.

     •   Complete a loan profile of delinquent and charged off loans to identify common
         characteristics of higher risk loans. Update the profile quarterly and amend
         lending policies accordingly to account for these identified risk elements.
66
  Examiners provided the credit union a quarterly schedule from June 2007 through March 2008 with maximum
ratios for each parameter.

                                                     45
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




   •   For risk management purposes, monitor, track or analyze various aspects of the
       indirect HELOC portfolio.

   •   Address concerns and issues regarding the Allowance for Loan and Lease
       Losses.

   •   Strengthen the underwriting requirements in the HELOC lending policies.

   •   Submit monthly reports to the California SSA and NCUA.


                     Code 23
June 2007
                     Started July 2007
Effective Date
                     Completed August 2007
   •   This purpose of the contact included reviewing Cal State 9’s problems with their
       line of credit, their liquidity, earnings, delinquencies and losses.

   •   Cal State 9 was transferred to NCUA Special Actions at the start of this contact.

   •   Examiners determined Cal State 9 management discontinued the indirect
       HELOC program in June 2007 with the last funding July 31, 2007.

   •   Examiners determined that as of July 31, 2007, there were 318 loans valued at
       more than $30 million that were delinquent thirty plus days. This included 181
       loans valued at more than $18 million that were 60 plus day delinquent.

   •   The credit union’s net worth was approximately 3.30 percent as of July 31, 2007.

   •   Examiners indicated charge-offs were accelerating due to the rapidly increasing
       delinquencies.

   •   Examiners determined that as of August 2007:

          WesCorp reduced their $90 million LOC to $25 million.

          The credit union is offering a 6 percent, seven month certificate of deposit
           with a limit of $50,000 (for new members only).

          The credit union almost exclusively charged off loans instead of attempting to
           buy out the first mortgages because there was little to no equity, and property
           values were falling in the San Francisco Bay Area.

                                               46
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




     •   Regarding CREDIT RISK, examiners:

            Described the quality of the loans as atrocious, indicating there is no
             controlling the portfolio at this point.

            Determined the HELOC portfolio is so bad the credit union is charging off
             almost all loans; there is no equity to access.

            Determined there were excessive amounts of stated income/Alt-A 67 loans
             ahead of the HELOCs or as the HELOCs themselves. Property values are
             declining in the Bay Area.

     •   Regarding LIQUIDITY RISK, examiners:

            Described the risk to the NCUSIF as extensive.

            Determined that while WesCorp reduced Cal State 9’s LOC to $26 million; the
             credit union had more than 900 accounts (total value more than $150 million)
             with total account balances of at least $100,000.


                           Code 23 Contact
August 2007
                           Started August 2007
Effective Date
                           Completed October 2007
     •   The primary purpose of the contact was to put together the bidder’s package and
         to facilitate the AMAC review of the portfolio.

     •   AMAC estimates that approximately 80% of the CAL9 – non prime HELOC
         portfolio has a combined loan to value (CLTV) equal to or greater than 90%
         based on our estimate of current market values.

     •   Approximately, 60 % [sic] of the underlying first variable rate mortgages, which
         were originated by World Savings and others, were underwritten on a stated
         income basis and contain a negative amortization feature that allows the loan
         balance to accrue to 125% of the original loan amount before the payment
         adjusts again to be fully amortizing. To date the holders of these first mortgages
         have elected to foreclose on their collateral rather than modify the payment and
         accrual terms.


67
   A category of mortgages which have a risk potential that is greater than prime but less than subprime. The reason
for the increased risk is usually not the borrower's credit history, but rather something specific about the mortgage.

                                                         47
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



   •   The HELOC loans are typically high yield variable interest rate loans with a
       twenty-five year term; open for the first ten years and are interest only during this
       period. The loans are expect [sic] to amortize on a principal and interest basis
       between years eleven and twenty-five

   •   The value of the HELOC portfolio is also materially affected by the current
       decline and instability of the California real estate market. In the majority of
       instances, there is negative equity in the property. In the event that the first
       mortgage loan becomes delinquent and foreclosure is initiated by the superior
       lien holder, there is insufficient equity in the property to warrant CAL9 paying off
       the first mortgage or even keeping the first current. The recovery value of the
       HELOC under these circumstances scenario approaches zero.


                      Code 23 Contact
September 2007
                      Started November 2007
Effective Date
                      Completed February 2008
   •   The contact was performed with an effective date of September 30, 2007, and its
       main purpose was to conduct the conservatorship action and to evaluate the
       condition of the credit union.

   •   The California Department of Financial Institutions (DFI) issued an order to
       conserve Cal State 9 Credit Union (CS9) on November 2, 2007. The DFI
       appointed the NCUA as receiver and RD Love accepted the appointment. The
       CEO was terminated in conjunction with issuance of the conservatorship order;
       the CFO resigned in September 2007.

   •   The CU represents significant risk to the NCUSIF. The problems are so
       pervasive and severe the conservatorship will not result in the restoration of safe
       and sound operations. The ultimate resolution of the case will be a P&A to be
       completed in the second quarter of 2008.




                                               48
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Appendix B – Liquidity Ratios and Trends (Glossary and Charts)

NCUA guidance indicates for purposes of quantitative analysis, ratios can assist in
assessing the level of liquidity risk at a credit union. We reviewed the following financial
data and ratios to illustrate trends of Cal State 9’s increasing liquidity risk during the
operation of Cal State 9’s indirect HELOC program:

       •   Total Loans to Total Shares – NCUA guidance indicates a high loan to share
           ratio is a key indicator of tightening liquidity. In addition, when loan demand
           exceeds normal share growth, management must rely on access to borrowed
           money or the sale of securities to raise needed cash.

       •   Total Loans to Total Assets - NCUA guidance indicates a high loan to asset ratio
           may indicate that a credit union cannot meet its member loan demands and other
           liquidity needs. A high loan to asset ratio (e.g., in excess of 80 percent) may
           stress liquidity, which is especially true if (1) the credit union has limited other
           funding sources; (2) existing funding depends on volatile sources; or (3) the
           credit union has minimal short-term investments.

       •   Investment Growth versus Loan Growth and Share Growth - NCUA guidance
           indicates when loan demand exceeds normal share growth, management must
           rely on the sale of securities 68 or access to borrowed money to raise needed
           cash. NCUA guidance also indicates that declining investments are a key
           indicator of tightening liquidity.

       •   Cash plus Short Term Investments to Assets – NCUA guidance indicates this
           ratio is an indicator of how much available cash the credit union has to meet
           share withdrawals or additional loan demand. A low or rapidly declining ratio
           may indicate the credit union will be unable to meet its current obligations.

       •   Unused (Unfunded) Commitments / Cash plus Short Term Investments – NCUA
           guidance indicates that an indicator of potential future illiquidity is the ratio of
           unused commitments to cash and short-term investments. This ratio represents
           the amount of additional member loans that the credit union has committed to
           fund in the future. If the ratio exceeds 100 percent, this means that the total
           amount of unused commitments exceeds credit unions’ total available funds
           on-hand.

       •   Borrowings – NCUA guidance indicates borrowings may indicate a credit union
           cannot meet its cash needs through member shares. Also, while borrowing is a
           source of liquidity, it does not provide a continuous basis for funding loan
           demand or share withdrawals. In addition, NCUA guidance indicates examiners
           should consider short-term borrowings 69 as highly volatile sources of funds.
68
     Investments that can be readily sold are one of the main sources for credit unions to raise needed cash.
69
     Short-term borrowings are borrowings of less than one year.

                                                           49
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



                Concentrations of these funds could subject the credit union to liquidity demands
                in uncertain economic times, or if the credit union’s credit standing deteriorates.
                Longer-term borrowings generally provide a stable source of funding.

        •       Share Certificates – NCUA guidance indicates that a credit union attracting
                shares by paying above market rates may provide an indication of liquidity
                concerns. NCUA guidance also indicates liquidity risk is increased when
                management relies on short-term certificates rather than long-term certificates.

Total HELOC 70 Growth (Chart 9)
Chart 9 illustrates the growth of Cal State 9’s HELOC loans and unfunded HELOC
commitments compared to total loan growth during the period March 31, 2003 71 through
June 30, 2007 72. The portfolio grew from just under $5 million to nearly $357 million
during this period. Between March 2003 and the December 2005 examination, Cal
State 9’s total indirect HELOC portfolio grew 4,419 percent and comprised nearly 88
percent of the credit union’s total loans. Between March 2006 and the June 2007
contact, the portfolio remained at between 90 and 92 percent of the credit union’s total
loans.


                               Chart 9: HELOC Growth versus
                                     Total Loan Growth
                $400
     Millions




                                                                                             Total
                $350
                                                                                             HELOCs
                $300
                $250                                                                         Total
                                                                                             Loans
                $200
                $150
                $100
                 $50
                  $-
                       $5        $74                      $207               $346 $357




70
   For this report, the indirect HELOC portfolio includes funded HELOCs and unfunded HELOC commitments.
71
   The last quarterly reporting period before Cal State 9 implemented the indirect HELOC program in May 2003.
72
   The effective date of the joint contact when Cal State 9 was placed under NCUA Special Actions and was
determined to be illiquid.

                                                       50
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Total Loans to Total Shares (Chart 10)
Cal State 9’s Loan to Share ratio increased steadily from 75 percent to nearly 102
percent between the first examination, effective March 2004 and the June 2007 contact
when Cal State 9 was placed under NCUA Special Actions. The ratio had remained
consistently at 90 percent or higher from the December 2005 examination even though
the credit union was participating a significant number of HELOCs and attracting
additional share certificates by offering higher than market dividend rates.


                              Chart 10: Total Loans to Total Shares


    150%




                                                         79%
                                                   79%




                                                                  78%

                                                                        77%
                71%




    100%                                                                      Loans/
                                                                              Shares

     50%                                                                      Peer


      0%




                                               51
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Total Loans to Total Assets (Chart 11)
Cal State 9’s Loan to Asset ratio increased from nearly 60 percent to 86 percent
between the March 2004 examination and the June 2007 joint contact. The credit
union’s ratio remained steadily at 80 percent or higher from the June 2006 joint contact
even though the credit union was participating a significant number of HELOCs. Even
more significant was that to fund its loans, Cal State 9 was already liquidating its
investments, borrowing short-term funds, had obtained a line-of-credit and sought
additional shares by paying higher than market dividend rates.


                               Chart 11: Total Loans to Total Assets

     100%




                                                                             68%
                                                   67%




                                                         68%




                                                                       67%
               62%




      80%
                                                                                   Loans/
      60%                                                                          Assets
      40%
                                                                                   Peer
      20%
       0%




                                               52
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Investment Growth versus Loan Growth and Share Growth (Charts 12a & 12b))
Between March 2004 and June 2007, Cal State 9’s total loans grew nearly 162 percent,
significantly, exceeding the credit union’s total share/deposit growth of 93 percent. This
is more notable considering, as examiners noted during the December 2005
examination, Cal State 9 management had been offering increased dividend rates to
attract shares to meet the credit union’s liquidity needs. As examiners also noted, Cal
State 9 management had been liquidating investments to meet the credit union’s
liquidity needs. Cal State 9’s total investments declined every quarter even as Cal State
9 management increased deposits and borrowed short-term money to fund a significant
growth and concentration in indirect HELOCs.


                Chart 12a: Investment Growth versus Loan Growth and
                            Share Growth (3/04 thru 12/05)
     70%
              59%
     50%                                                                          40%
                        46%                                                                   Investment
                               33%         32%
                                                         26%                            25%   Growth
     30%                                                                21% 24%
                                                      12%        15%                          Loan Growth
                       9%
     10%       5%                    5%          4%             2%
                                                                                              Share Growth
     -10%
                                                      -13%     -11%    -13%
     -30%                     -22%        -22%                                -24%
              -47%     -45%
     -50%




                                                        53
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




                            Chart 12b: Investment Growth versus Loan
                             Growth and Share Growth (3/06 thru 6/07)
          70% 63%                 62%           62%                                                      Investment
                                                       57%                                               Growth
                           52%           48%                 48%         55%
          50%
                                                                                34%
          30%                                                                                19%         Loan
                                                                                                         Growth
          10%

                      -10%                                         -7%                             -6%
          -10%                                                                        -6%
                                                                                                         Share
                                  -21%          -14%                                                     Growth
          -30%
                                                                               -39%
          -50%

          -70%                                                                              -66%




Cash plus Short Term Investments to Assets (Chart 13)
Cal State 9’s ratio remained significantly below peer during the operation of the indirect
HELOC program. The ratio had been approximately half the peer ratio from March
2004 through September 2005 and dropped significantly during the next quarter
(December 2005).


                       Chart 13: Cash Plus Short-Term Investments to Total
                                             Assets
          20%                                                                                18%
                     17%                                            17%                            17%    Cash & ST
                                          15%                              15% 15% 15%                    Invest /
                       15% 14% 14%              14% 14% 15%
          15%                                                                                             Total
                                                                                                          Assets
                9%




                                                                                                          Peer
          10%
                                                8%
                       8%



                                   7%




                                                       7%
                                          7%
                             6%




                                                                                       5%
                                                                                 4%



                                                                                            4%
                                                                          4%
                                                             3%

                                                                   3%




           5%
                                                                                                   3%




           0%




                                                            54
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Unused (Unfunded) Commitments / Cash plus Short Term Investments (Chart 14)
Despite Cal State 9’s increased borrowing and increased loan participations, this ratio
clearly demonstrates that Cal State 9’s liquidity position was distressed throughout the
period the credit union operated the indirect HELOC portfolio.


                           Chart 14: Unfunded Commitments to
                            Cash plus Short Term Investments

     700%

     600%

     500%

     400%

     300%

     200%

     100%

       0%




                                               55
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Short-Term Borrowings (Chart 15)
As examiners indicated during the December 2005 contact, Cal State 9 management
was borrowing funds to meet its liquidity needs. WesCorp reduced the credit union’s
LOC from $90 million to $25 million during the June 2007 contact.


                                  Chart 15: Short-Term Funds Borrowed and
                                           Available Lines of Credit
             $100                                                                                        Short-
                                                                                                   $90
                                                                                                         Term
  Millions




              $80                                                                                        Funds
                                                                           $70 $70 $70 $70
                                                                                                         Borrowed
              $60                           $52 $52 $52 $52 $52
                                      $39




                                                                                                         LOC



                                                              $36




                                                                                                 $35
                                                                          $35
                                $35




                                                                                           $32
                                            $32
                    $31




                                                                    $30
                          $29




              $40                                                                                        Available




                                                                                $22
                                                  $21

                                                        $15

              $20
                     $0




                                                                                      $0
               $0




                                                              56
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Share Certificates (Chart 16)
Cal State 9’s Total Share Certificates increased from approximately $43 million as of
March 2003 to a high of more than $222 million by December 2006 (414 percent
growth). As the chart illustrates, the most significant growth was in the more volatile
short-term certificates.


                         Chart 16: Growth of Share Certificates


               $250
    Millions




               $200
               $150                                                             < 1 year
               $100                                                             1 to 3 Years
                $50                                                             > 3 Years

                 $0




                                               57
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Appendix C – Changes in the Real Estate Market Environment during the
Operation of the Indirect HELOC Program

Rising Interest Rates

NCUA indicated in guidance to examiners that in 2003, interest rates had declined to
their lowest point in 45 years. 73 From there, interest rates had shown a steadily
increasing trend. On June 27, 2003, the prime rate was 4 percent and was raised five
times in 2004 to 5.25 percent. As examiners indicated during the December 2005
examination, the prime rate had been adjusted upwards eight times during 2005 (to
7.25 percent on December 13, 2005). Chart 17 illustrates the increasing prime rate
between June 2003 (4 percent - its lowest point in at least 45 years) and June 2006
(8.25 percent – its high point before beginning a decline in late 2007).


                                      Chart 17: Prime Rate -
                                Increases June 2003 thru June 2006
          9%
          8%
          7%
          6%
          5%
          4%
          3%
          2%
          1%
          0%




Furthermore, examiners indicated that the risk of such a high concentration of indirect
HELOCs would materialize if there was a steep decline in the market values while the
interest rates rose to levels above the borrower’s ability to make full monthly payments.

Overvalued Home Prices

On August 31, 2005, the Credit Union Times published an article regarding overvalued
home prices. The article indicated 53 cities were at “high risk of price declines,”
including 25 cities in California where the author indicated the overvaluations ranged
from 30 percent to 69 percent. These cities included San Jose (36 percent overvalued),

73
     Examiners indicated that the HELOCs were adjustable rate loans tied to the prime rate.

                                                           58
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Oakland (39 percent), Los Angeles (48 percent), San Diego (53 percent), Sacramento
(54 percent), Stockton (58 percent), and Santa Barbara (69 percent).

Regarding home values and affordability, NCUA guidance issued in September 2005
indicated that during 2001 through 2003, the west coast had experienced significant
levels of price appreciation. In addition, NCUA officials indicated that the median sales
price of existing homes in the United States increased by 8.5 percent in 2003, 9.3
percent in 2004, and 14.7 percent for the twelve months ending June 30, 2005.
However, NCUA indicated home prices in California had doubled in five years. 74

The Consumer Federation of America 75 reported in May 2006 that in certain California
markets with high concentrations of non-traditional mortgages, foreclosure rates in the
fourth quarter of 2005 were much higher than in the previous year. 76 For example,
foreclosures in San Diego and Orange County grew by more than a third (34.5 percent
and 34.2 percent respectively) between the fourth quarter of 2004 and the fourth quarter
of 2005, and foreclosures in San Francisco grew by 45.2 percent over the same period.




74
   This data is according to the National Association of Realtors.
75
   Consumer Federation of America is an advocacy, research, education, and service organization that has been in
existence since 1968 and has a membership of approximately 300 nonprofit organizations.
76
   Exotic or Toxic? An Examination of the Non-Traditional Mortgage Market for Consumers and Lenders (Allen J.
Fishbein, Patrick Woodall), May 2006.

                                                       59
Material Loss Review of Cal State 9 Credit Union
OIG-10-03



Appendix D – Management Comments




                                               60
Material Loss Review of Cal State 9 Credit Union
OIG-10-03




                                               61
